¹.

In The Supreme Court of
the United States
))))))Ë))))))

ESTATE OF EARNEST LEE
BOYLAND, et. al.
Petitioners
v.

UNITED STATES DEPARTMENT
OF AGRICULTURE, et. al.
Respondents

))))))Ë))))))

Petition for Writ of Certiorari to the
United States Court of Appeals for the
District of Columbia Circuit
))))))Ë))))))

PETITION FOR A WRIT OF CERTIORARI
with Appendix

))))))Ë))))))
Paul A. Robinson, Jr.
3749 Marty Street
Memphis, TN 38109
Problaw937@hotmail.com
Counsel for Petitioner
July, 2019

I.

QUESTION PRESENTED

Is it a denial of Equal Protection for the
United States Department of Agriculture ("USDA" or
"the Department") and Epiq Class Action & Claims
Solutions, Inc. ("Epiq"), to afford women and
Hispanic claimants access to a remedial claims
framework, but bar ,as a threshold matter, access to
this claims framework claims by Black male farmers
solely due to race and gender in light of the strictest
scrutiny to which racial classifications are subject
and this Honorable Supreme Court's recent
decisions concerning the Government's use of race in
the following cases:

Department of Commerce, et al.
1.
v. New York, No. 18-966, June 27, 2019,
588 U.S. ___(2019) which states an
agency's stated reason for acting on
racial grounds may be rejected by a
Court on a strong showing of bad faith
or improper behavior and may justify
extra-record discovery.
Rucho v. Common Cause, et al.,
2.
No. 18-422, June 27, 2019, 588
U.S.__(2019) which states in light "our
country's long and persistent history of
racial discrimination…as well as our
Fourteenth Amendment jurisprudence
i

has always reserved the strictest
scrutiny for discrimination or
classifications based on race.
3.
Kisor v. Wilkie Secretary of
Veterans Affairs, No. 18-15, June 26,
2019. A court must also make an
independent inquiry into whether the
character and
context of agency
action , interpretation of its rules is
entitled to controlling
weight if
the agency's interpretation does not
reflect its "fair and considered
judgment".

Flowers v. Mississippi, 588 U.S.
4.
____
the argument that racial
classifications, may survive when
visited upon all races equally, is no
more authoritative today than the case
which advanced the theorem , Plessy v.
Ferguson, 163 U.S. 537 (1896).

ii

II.
PARTIES
The Petitioners are Estate of Earnest Lee
Boyland, Estate of David Shelton, Estate of Lee
Sylvester Caldwell (the "non-BFAA Petitioners" or
"non-BFAA Plaintiffs"); and the Black Farmers and
Agriculturalists Association, Inc. (the "BFAA") who
were in the District Court. The Respondents are
United States Department of Agriculture (the
"USDA") and Petitioners in the Circuit Court, Epiq
Class Action & Claims, Inc. ("Epiq"), in its capacity as
United States Department of Agriculture Hispanic &
Women Farmers and Ranchers Claims
Administrator; and Thomas J. Vilsack, in his official
capacity as United States Department of Agriculture
(sometimes referred to collectively as "Respondents")
who were defendants in the District Court and
Respondents in the Circuit Court.

iii

III.

TABLE OF CONTENTS

I.

QUESTIONS PRESENTED . . . . . . . . . . . i

II.

PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . iii

III.

TABLE OF CONTENTS . . . . . . . . . . . . . iv

IV.

TABLE OF AUTHORITIES. . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI

V.

OPINIONS BELOW . . . . . . . . . . . . . . . . . 1

VI

JURISDICTION . . . . . . . . . . . . . . . . . . . . 2

VII.

STATEMENT OF THE CASE . . . . . . . . . . 2

VIII. REASON FOR GRANTING
THE PETITION . . . . . . . . . . . . . . . . . . . . 3
SINCE THE DECISION OF THE
CIRCUIT COURT, THIS COURT HAS
ISSUED FOUR OPINIONS THAT
DEAL WITH THE ROLE RACE MAY
CONSTITUTIONALLY PLAY IN
CONNECTION WITH ACTION BY
THE GOVERNMENT OR AN
AGENCY. IN THIS CASE USDA
ACTED OUTSIDE THE SCOPE OF
ITS
EXPERTISE
AND
CONGRESSIONAL MANDATE BY
IMPOSING A PRECONDITION ON
iv

BLACK MALES THAT DENIED
THESE
CITIZENS
AN
OPPORTUNITY TO DEMONSTRATE
STATUS TO PARTICIPATE IN THE
CLAIMS PROCESS. THIS TYPE OF
THRESHOLD EXCLUSION BASED
ON RACE IS CONTRARY TO THE
COURT'S OPINIONS DELINEATED
IN THE "QUESTION PRESENTED" . . . . 3
ARGUMENT IN SUPPORT

IX.

I.

INTRODUCTION . . . . . . . . . . . . . . 6

II.

STANDING . . . . . . . . . . . . . . . . . . . 8

III.

D I S C R I M I N A T I O N
COMPLAINT FILED BY JULY
1,1997 . . . . . . . . . . . . . . . . . . . . . . 13

IV.

A G E N C Y ' S
INTERPRETATION/CONSTR
UCTION. . . . . . . . . . . . . . . . . . . . . 18

V.

CONTINUING CLAIMS AND
EQUITABLE TOLLING . . . . . . . . 19

CONCLUSION . . . . . . . . . . . . . . . . . . . . 22

APPENDIX

v

TABLE OF AUTHORITIES
Cases
Baka v. United States,
74 Fed. Cl. 692 (2006) . . . . . . . . . . . . . . . . 21
Bolling v. Sharp,
347 U.S. 497 (1954) . . . . . . . . . . . 4, 6, 12, 20
Brown v. Board of Education,
347 U.S. 483 (1954) . . . . . . . . . . . . . . 4, 6, 12
Central Pines Land Co. v. United States,
61 Fed. Cl. 527 (2004) . . . . . . . . . . . . . 20, 21
Chevron U.S.A.., Inc. v. NRDC,
467 U.S. 837 (1984) . . . . . . . . . . . . . . . 18,19

Department of Commerce, et al. v. New York,
No. 18-966, June 27, 2019,
588 U.S. ___(2019) . . . . . . . . . . . . . . . . . . . . i
Estate of Earnest Lee Boyland, et al. v.
United States Department of Agriculture,
United States Court of Appeals for the
District of Columbia Circuit,
Case No. 17-5082,
January 15, 2019 . . . . . . . . . . . . . . . 9, 12, 17

Flowers v. Mississippi,
588 U.S. ____ . . . . . . . . . . . . . . . . . . . . . . . . ii

vi

Holland v. Florida,
560 U.S. 631 . . . . . . . . . . . . . . . . . . . . . . . . 21
In Re. Black Farmers Discrim Litig.,
856, F. Supp. 2d (D.D.C. 2011) . . . . . . 12, 16

Kisor v. Wilkie Secretary of Veterans Affairs,
No. 18-15, June 26, 2019 . . . . . . . . . . . . . . . ii
Lujan v. Defs. Of Wildlife,
504 U.S. 555 (1962) . . . . . . . . . . . . . . . . . . . 8
Mitchell v. United States,
10 Cl. Ct. 63 (1986). . . . . . . . . . . . . . . . . . . 21

Plessy v. Ferguson,
163 U.S. 537 (1896) . . . . . . . . . . . . . . . . . . . ii
Rucho v. Common Cause, et al.,
No. 18-422, June 27, 2019,
588 U.S.__(2019) . . . . . . . . . . . . . . . . . . . . . i
Wells v. United States,
420 F.3d (Fed. Cir. 2004) . . . . . . . . . . . . . . 20

vii

Statutes and Constitutional Provisions
Equal Credit Opportunity Act (ECOA)
15 U.S.C. §1691, et seq . . . . . . . . . . . . . . . . 7
Food, Conservation, and Energy Act of 2008,
Pub. L. No. 110-234 §14011,
122 Stat. 923 1448 (2008)
("2008 Farm Bill") . . . . . . . . . . . . . . . passim
Title VI of the Civil Rights Act of 1964
(42 U.S.C. §2000d) . . . . . . . . . . . . . . . . . . 2, 7
U.S. Constitution, Amendment V . . . . . . . . . 2, 4, 7
28 U.S.C. 1254. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

viii

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully petitions for a writ of
certiorari to review the judgment of the United
States Court of Appeals for the District of Columbia
Circuit.
V.

OPINIONS BELOW

October 31, 2017 Decision of the United
States Court of Appeals for the District
of Columbia Circuit Denying Summary
Affirmance (Appendix D)
January 15, 2019 Per Curiam Judgment
and Order Affirming District Court
(Appendix C)
April 24, 2019 Per Curiam Judgment
denying Petitioners' Request for
Rehearing En Banc (Appendix B)
April 24, 2019 Per Curiam Judgment
denying Petitioners' Request for Panel
Rehearing (Appendix A)

1

VI.

JURISDICTION

The Order denying Rehearing and Rehearing
En Banc was entered on April 24, 2019. Jurisdiction
here is based on 28 U.S.C. 1254.
VII.

STATEMENT OF THE CASE

Petitioners commenced this action on July 13,
2015, by filing a Complaint alleging Respondents'
violation of Title VI of the Civil Rights Act of 1964(42
U.S.C. §2000d) and the Fifth Amendment of the U.S.
Constitution. Specifically, Petitioners challenged
Respondents' implementation of a discriminatory
administrative claims process,(hereinafter the
"Love/Garcia Framework") whereby Epiq, at the
direction of and on behalf of the USDA as its agent,
expressly excludes African-American males from
participating in the claims process based solely on
Petitioners' race and gender. Petitioners Complaint
asserted claims for both monetary damages and
injunctive relief.
Epiq and the USDA moved to dismiss the
Petitioners' Complaint on October 23, 2015, and
March 4, 2016, respectively. On March 16, 2017, the
District Court granted Epiq's and the USDA's motion
to dismiss. Petitioner filed a timely notice of appeal
2

on April 17, 2017. On October 31, 2017, the Circuit
denied Respondents motion for summary affirmance
and directed the parties to address certain issues in
their briefs.
On January 15, 2019 the Circuit Court
affirmed the district Court. Petitioners' motion for
Rehearing and Rehearing en banc was denied on
April 24, 2019.
VIII.REASONS FOR GRANTING
THE PETITION
SINCE THE DECISION OF THE
CIRCUIT COURT, THIS COURT
HAS ISSUED FOUR OPINIONS
THAT DEAL WITH THE ROLE
RACE MAY CONSTITUTIONALLY
PLAY IN CONNECTION WITH
ACTION BY THE GOVERNMENT
OR AN AGENCY. IN THIS CASE
USDA ACTED OUTSIDE THE
SCOPE OF ITS EXPERTISE AND
CONGRESSIONAL MANDATE BY
IMPOSING A PRECONDITION ON
BLACK MALES THAT DENIED
THESE
CITIZENS
AN
O P P O R T U N I T Y
T O
DEMONSTRATE STATUS TO
PARTICIPATE IN THE CLAIMS
PROCESS.
THIS TYPE OF
THRESHOLD EXCLUSION BASED
3

ON RACE IS CONTRARY TO THE
COURT'S OPINIONS DELINEATED
IN THE "QUESTION PRESENTED"
ARGUMENT IN SUPPORT
This Petition should be granted for the reason
the Circuit Court's January 15, 2019 decision not
only directly conflicts with the recent opinions of the
United States Supreme Court delineated in the
"Question Presented" but also within Brown v.
Board of Education, 347 U.S. 483 (1954) , Bolling v.
Sharp, 347 U.S. 497 (1954) and the Food,
Conservation, and Energy Act of 2008, Pub. L. No.
110-234 §14011, 122 Stat. 923 1448 (2008)
(hereinafter the "2008 Farm Bill"). This dispute
raises the following issues:
1.
Having conceded that the
Garcia/Love credit discrimination claim
Framework's sex and ethnicity
limitations violate th e Fifth
Amendment, the Circuit Court decision
fails to either analyze or examine
whether the Framework's disparate
treatment of credit discrimination
claims of
socially disadvantaged
farmers within the meaning §14011 of
the 2008 Farm Bill based solely upon
the basis of sex and ethnicity, violates
4

the 2008 Farm Bill's mandate to resolve
credit discrimination claims in a "just"
manner.
2.
The Circuit Court's decision is
erroneous for the following reasons:
a.
Contrary to the Circuit
Court decision's repeated
assertion, the Complaint of
Petitioners alleged unexpired
claims of credit discrimination;
b.
The
Circuit Court's
redressability analysis ignores
that
the
Framework
Administrator, EPIQ, processed
credit discrimination claims of
Hispanics and females without a
threshold showing that these
claimants sought to press their
claims before the United States
Department of Agriculture
(USDA) prior to July 1997;
c.
The Circuit Court's statute
of limitation analysis is
predicated on the erroneous
premise that under the 2008
Farm Bill, Petitioners must be
Pigford claimants rather than
merely socially disadvantaged
farmers; and
d.
The
Circuit Court's
redressability analysis ignores
that the Love/Garcia Framework
does not require Hispanic and
5

female claimants to demonstrate
having made a prior credit
discrimination claim to USDA in
order to submit a claim.
The Circuit Court's decision fails
3.
to comport with the United States
Supreme Court decisions in Brown v.
Board of Education and Bolling v.
Sharp for the reason it countenances
provision by USDA of the right to
pursue credit discrimination claims on
the basis of sex and ethnicity rather
than status as a socially disadvantaged
farmer.
I.

INTRODUCTION

Petitioners raised due process and equal
protection claims against the USDA's handling of
claims of credit discrimination by Black male
farmers. The Circuit Court determined that
notwithstanding the likely invalidity of the sex and
ethnicity components of the claims process,
Petitioners lacked Article III standing to challenge
the process for want of redressability. Petitioners'
claim is that due to their status as Black males, they
have been denied rights bestowed upon them by
§14011 of the 2008 Farm Bill as socially
disadvantaged farmers.
USDA and its claim
administrator, EPIQ ,have denied Petitioners due
6

process of law under the Fifth Amendment to the
United States Constitution and Title VI of the Civil
Rights Act of 1964, 42 U.S.C. §2000d, because USDA
has imposed ethnic and gender threshold conditions
precedent to any consideration whatsoever of the
merit of credit discrimination claims of Black males.
The Circuit Court decision whitewashes
Petitioners' unconstitutional, exclusion from the
Garcia/Love Framework by USDA on the specious
ground that Petitioners lack standing for the reason
their complaint fails to allege that they ever asserted
that they possessed unexpired claims of credit
discrimination. The Circuit Court analysis is flawed
in this respect for the reason, the right to pursue a
credit discrimination claim here arises from §14011
of the 2008 Farm Bill , the Fifth Amendment and
Title VI. Participation in the challenged USDA
claims Framework has not been limited to Hispanics
or females with unexpired credit discrimination
claims or those who had complained in some manner
of USDA discrimination before filing claims under
the Equal Credit Opportunity Act (ECOA) 15 U.S.C.
§1691, et seq. The Circuit Court erroneously endorses
the differential treatment accorded to credit
discrimination claims of Hispanic and female socially
disadvantage farmers, and the claims of Black male
socially disadvantaged farmers by USDA solely on
7

the erroneous ground that Petitioners lack standing
for want of readdressability owing to the absence or
allegation of any live claims. The Circuit Court's
analysis ignores the Congressional mandate within
§14011 concerning the only predicate required to
challenge USDA credit discrimination, status as a
socially disadvantaged farmer. Accordingly, given
that the Complaint alleged Petitioners or their
ancestors asserted complaints with USDA in a
manner substantially equivalent to Hispanic or
female socially disadvantaged farmers, if the claims
of Hispanic and females are redressable, so too are
the claims of Petitioners.
II.

STANDING

The United States Supreme Court set forth the
requirement for Article III standing in Lujan v. Defs.
Of Wildlife, 504 U.S. 555, 561 (1962) as follows: 1)
injury in fact; 2) causation; and 3) redressability. Id.
at 560-61. Injury in fact is "an invasion of a legally
protected interest which is (a) concrete and
particularized…and (b) actual or imminent, not
conjectural or hypothetical." Id at 560. The injury
must also be "faily traceable to the challenged action
of the defendant, and not the result of the
independent action of some third party not before the
8

court." Id. Finally, "it must be likely, as opposed to
merely speculative, that the injury will be redressed
by a favorable decision." Id. at 561.
Here the Circuit Court decision states:
Even assuming plaintiffs here would
prevail on their challenge to their
exclusion from the Framework, their
injury is not redressable because they
lack live credit discrimination claims to
present there.
The district court
accepted the plaintiffs' description of
their injury as "the loss of the
'opportunity…to present a meritorious
claim for discrimination against'" USDA
challenging past credit discrimination,
as do we. Estate of Boyland, 242 F.
Supp. 3d at 31 (quoting Compl.74, 83,
90). That loss of opportunity cannot be
redressed by opening the Framework to
plaintiffs, because any credit
discrimination claims they once had
under ECOA have been extinguished,
as explained below.
See, Estate of Earnest Lee Boyland, et al. v. United
States Department of Agriculture, United States
Court of Appeals for the District of Columbia Circuit,
Case No. 17-5082, January 15, 2019.
The Circuit Court incorrectly states that the
challenged USDA Garcia/Love Framework lawfully
9

limits redress to credit discrimination from USDA
before 1997. In practice, the pre 1997 threshold has
not been employed by USDA as a bar to the mere
submission of claims by a female or Hispanic farmer,
as it has been with Black males.
Petitioners have alleged that under §14011 of
the 2008 Farm Bill Congress stated: "[i]t is the sense
of Congress that all pending claims and class actions
brought against the Department of Agriculture by
socially disadvantaged farmers
or
ranchers…including Native American, Hispanic, and
female farmers or ranchers, based on racial, ethnic,
or gender discrimination in farm program
participation should be resolved in an expeditious
and just manner." Pub. L. 110-234, §14011, 122 Stat.
923, 1448 (2008) (codified at 7 U.S.C. §2279-2 note).
The mandate of Congress to USDA is to
resolve claims of socially disadvantaged farmers in
an "expeditious and just manner." USDA was not
given a mandate to create ethnic or gender threshold
conditions to the filing of claims by certain
disadvantaged farmers but not others. Accordingly,
if female and Hispanic farmers may submit claims
without a threshold showing of filing a USDA
complaint prior to 1997, USDA has no authority to
accord an opportunity for Hispanics and females to
submit such claims, but not Black males.
10

It is beyond debate that the well spring of
governmental liability for credit discrimination
claims lies in the historical treatment and pernicious
form of discrimination exacted at the local level by
USDA officials against Black farmers. The record in
Pigford establishes as Judge Friedman notes:
Forty acres and a mule. That was the
promise made by the government to
those former slaves who wanted to farm
land in the South after the Civil War.
As detailed in this Court's opinion in
Pigford I, for most African-Americans
the promise of forty acres and a mule
was never kept, and the United States
Department of Agriculture and the
county commissioners to whom it
delegated so much power bear much of
the responsibility for the broken
promise to those African-American
farmers and their descendants. Pigford
v. Glickman, 185 F.R.D. at 85. In the
early 1900's, there were 925,000
African-American farmers in the United
States farming 16 million acres of
farmland. By the time the Court
approved the Pigford I consent decree,
there were fewer than 18,000
African-American farms in the United
States and African-American farmers
owned less than three million acres of
11

land. Id. As the Court said 12 years ago
in approving the consent decree,
"[n]othing can completely undo the
discrimination of the past or restore lost
land or lost opportunities" to the many
African-American farmers who were
part of the Pigford I class. Id. at 112.
Historical discrimination cannot be
undone, but the Pigford I consent
decree was a significant first step, a
step that had been a long time coming.
And, as described earlier in this
Opinion, supra at 9, nearly 16,000
African-American farmers received a
total of more than $1 billion through
the claims process created by the
settlement of that historic case.
In Re. Black Farmers Discrim Litig., 856, F. Supp.
2d, 41-42 (D.D.C. 2011).
§14011 of the 2008 Farm Bill was enacted to
address challenges to this sorrowful legacy of credit
discrimination raised by Black farmers, which served
as the vanguard for claims by groups, such as Love
and Garcia, unaffected by the peculiar and unique
impact of slavery upon Petitioners' ancestors. It is
contrary to settled discrimination jurisprudence
articulated in both Brown and Bolling v. Sharp to
now restrict the opportunity for Black farmers, such
as Petitioners, to demonstrate a redressable injury on
12

grounds that differ from that required from other
socially disadvantaged groups such as Love/Garcia
claimaints.
III.

DI SC R I M I NATI ON
COMPLAINT FILED BY JULY
1,1997
A.

Live Claims:

The Circuit Court decision has made several
references to the fact that the Petitioners did not
have "live claims"1 because, among other things
("Plaintiffs do not allege that they complained to
USDA before July 2, 1997, and, accepting that they
did not do so…"), (Crt. of App. ORDER at 3, 4, 7, 8, 9,

1

Plaintiffs will argue that neither Hispanic (Garcia) or
Female (Love) claimants in the Framework had live
claim-or for that matter- Pigford II, as being describe
by the defendants and accepted by the Court. But
for, the 2008 legislation and/or the corresponding
voluntary Framework none of the claimants (Pigford
II, Hispanics and/or Female) had an opportunity to
present claims for racial discrimination against
USDA, during the relevant period. Again, Boyland et
al claimants are not asking for no more nor less that
the Hispanic and Women claimants are-equal
treatment under the law.
13

12, 14 and 15) two obstacles prevent them from
participating in the Garcia/Love Framework…"). The
problem with this assumption ("accepting that they
did not do so") is that it, along with its conclusions is
incorrect.2 Love/Garcia Plaintiffs were not required
to produce this information prior to being allowed the
opportunity to participate. First, no claimants who
participated in any of the referenced settlement
agreements with USDA for racial discrimination
were required to show that he or she had filed a
discrimination complaint by July 1, 1997, prior
(emphasis added) to being allowed to receive and or
fill out a claim for relief. Every potential claimant in
Pigford I and or II, Keepseagle, Garcia, Love and the
referenced Framework was allowed to present that
information after being allowed to receive a claims
package.3 Second, the Pigford Consent Decree
expressly provided, as did other settlement
agreements, that the information needed to
submitted a complete claims package would be listed
and spelled out in the claim form (Consent Decree at

2

The Court concluded that: “Whatever form the
obstacle takes, it prevents the plaintiffs from
processing their claims through the Framework.”
3

See, Consent Decree at 5(b), 5(f), 6(a) and 9(a)(i).
14

1(d) that was to be mailed and sent by the facilitator
to the claimant who requested one as follows:
The term "claim package" shall mean
the materials sent to claimants who
request them in connection with
submitting a claim for relief under the
provisions of this Consent Decree. The
claim package will include (i) a claim
sheet and election form and a Track A
Adjudication claim affidavit, copies of
which are attached hereto as Exhibit A;
and (ii) associated documentation and
instructions.
Third, the Pigford II claimants had an
opportunity to correct and or forward any missing
material or documents to the facilitator after being
allowed to be a claimant in the litigation as follows:
For each Claimant who has submitted
an incomplete Claim Package or for
each Claim Package that the Claims
Administrator is unable to determine
whether it is complete or timely, the
Claims Administrator shall send to the
Claimant and his or her Counsel a
completed Your Claim Package is Not
Complete Form (Ex. F). A Claimant
shall have thirty (30) calendar days
from the date of postmark of such a
Form to submit, either by first class
15

mail, postage prepaid, or electronically,
a Complete Claim Package.
See, Settlement Agreement for In re Black
Farmers Litigation; Case 1:08-mc-00511-PLF
Document 170-2, dated 05/13/11 at Pages 23 of 110 (
V(B)(2)).
Fourth, the Framework for Hispanic and
Female Farmers and Ranchers made provisions for
claimants to submit additional information (YOU
ARE RECEIVING THIS NOTICE BECAUSE
THE CLAIM PACKAGE YOU SUBMITTED IS
NOT COMPLETE AND WE NEED ADDITIONAL
INFORMATION). This notice provision gave a
detailed list of items and documents that the party
(claimant) needed to provide and it gave claimants
approximately 30 days to forward the same back to
the Facilitor. Also, the Framework's Claim Form and
its pertinent part; PART 2: TIER SELECTION
(what document must I send with this form?) as
follows:
A sworn, verified, or notarized
written statement from someone
who
witnesses
USDA's
discrimination against you: OR, etc.
Id.

16

Fifth, the Framework did not require that the
claimant show this discrimination complaint to
USDA before being allowed to participate in the
process. In fact, all Hispanic and Female claimants in
the Framework had an opportunity to provide
additional and otherwise required materials if the
facilitator found that certain required documents
were missing. Therefore, any material, associated
documentation and instructions to include the
declaration regarding, inter alia, the Complaint of
discrimination (July 1, 1997) would be listed and
requested in the claims package and not, necessarily
required to be submitted before a claims package
would be sent to claimants. African American males
like Boyland et al are the only potential claimants to
have been denied for not alleging the discrimination
to USDA before being allowed to participate.
Contrary to the Circuit Court Opinion this issue was
not raised or addressed in the BFAA Motion to
Intervene in 2013.
In sum, Petitioners are the only claimants who
have been subject to a precondition that they
complained of discrimination (live claim) by July 1,
1997, before being allowed to participate in the
Framework.
But, Boyland was not denied
participation in the Love/Garcia Framework by the
USDA and EPIQ for not submitting a Complaint of
17

discrimination against USDA by July 1, 1997.
Instead, they were denied solely because they were of
African American males (Compl. at 73, 79 and 86)
without the opportunity to even fill out and or
provide any material as was enjoyed by other
similarly situated social disadvantaged farmers and
ranchers (Compl. at 103).
IV.

A G E N C Y ' S
INTERPRETATION/CONST
RUCTION.

The USDA's interpretation of any statutes to exclude
African American males is both violative of
Congress's clear and unambiguous intent and the
position of the Department of Justice that address
the discrimination issues in 1994 (n. 1) (1994 Opinion
and Memorandum for James S. Gilliland) cited in
Petitioners' brief. When a court reviews an agency's
construction of the statute which it administers, it is
confronted with two questions. First, always is the
question whether Congress has directly spoken to the
precise question at issue. If the intent of Congress is
clear, that is the end of the matter; for the court, as
well as the agency, must give effect to the
unambiguously expressed intent of Congress (Compl.
at 115). See, Chevron U.S.A.., Inc. v. NRDC, 467
18

U.S. 837 (1984), (citing, Morton v. Ruiz, 415 U.S. 199
(1974). If, however, the court determines Congress
has not directly addressed the precise question at
issue, the court does not simply impose its own
construction on the statute, as would be necessary in
the absence of an administrative interpretation.
Rather, if the statute is silent or ambiguous with
respect to the specific issue, the question for the court
is whether the agency's answer is based on a
permissible construction of the statute. Id. Clearly,
Congress did not intend for USDA to limit the right
to present credit discrimination claims to certain
racial or ethnic groups.
V.

CONTINUING CLAIMS AND
EQUITABLE TOLLING

In this case USDA did not permit Petitioners
to demonstrate that they could overcome statues of
limitations issues under either the continuing claims
doctrine or equitable tolling.
Courts of Appeal have explained the
continuing claims doctrine as follows:
[T]he continuing claim doctrine is
applicable where "each wrong
constituted an alleged violation of a
statute or regulation that occurred
19

when that particular wrong occurred,
independent of the accrual of other
wrongs."
***
On the other hand, if there was only a
single alleged wrong, even though the
wrong caused later adverse effects, our
case law has said the continuing claim
doctrine is not applicable
Wells v. United States, 420 F.3d (Fed. Cir. 2004)
(holding plaintiff could apply the Doctrine to claims
against the government for deducting too much from
his Navy retirement pay contrary to 5 U.S.C.
5514(a)(1)).4 "Therefore, a continuing claim exists in
cases where the defendant owes the plaintiff an
ever-present duty, the non performance of which
would give rise to a series of actionable breaches, but
the doctrine will not apply if the plaintiff's claim
arises from a 'seminal event' that would constitute
one cause of action for the purposes of the statute of
limitations." Central Pines Land Co. v. United

4

See also, Boling v. United States, 220 F.3d 1365, 1373
(Fed. Cir. 2000) ("The continuing claims doctrine has
been applied when the government owes a continuing
duty to the Petitioners. In such cases, each time the
government breaches that duty, a new cause of action
arises.").
20

States, 61 Fed. Cl. 527, 537 (2004). The doctrine
prevents the defendant from escaping liability (and
thereby "acquire a right" to continue its wrongdoing).
Mitchell v. United States, 10 Cl. Ct. 63, 75 (1986).
The Courts have recognized that "the test for
distinguishing continuing claims from single-event
claims may not admit of easy of consistent
application." Baka v. United States, 74 Fed. Cl. 692,
696 (2006). Applied to these facts the imposition of
unlawful racial impediments to even submitting a
claims package itself is redressable.
Likewise, under Holland v. Florida, 560 U.S.
631, a litigant is entitled to equitable tolling of a
statute of limitations only if the litigant establishes
two elements: "(1) that he has been pursuing his
rights diligently, and (2) that some extraordinary
circumstance stood in his way and prevented timely
filing." Id. 649 (internal quotation marks omitted).
In this case Petitioners were denied an
opportunity to even argue to USDA that they had
been pursuing their rights diligently and that
circumstances, such as historic pernicious and
virulent racial discrimination against Black males
prevented the timely filing of credit discrimination
claims. Here USDA without any authority or valid
governmental interest summarily excluded

21

Framework participation by Black males. For this
reason the Circuit Court's redressability analysis is
incorrect. If the various windows discussed by the
Circuit Court to present a credit discrimination claim
are open under either the continuing claim doctrine
or equitable tolling, these claims would be
redressable.
Accordingly, the Circuit Court's redressability
analysis fails to consider claims available to Black
farmers such as Petitioners and should be reheard.
VI.

CONCLUSION

In June of this year this Court analyzed the
use of racial classifications in various contexts- jury
selection , census administration, redistricting and
also limited the doctrine concerning judicial
deference to agency action to situations where the
Agency's action is free from bad faith or improper
behavior. USDA has compiled a history of acting in
bad faith in relation to Black farmers through its
overt discrimination , misfeasance and mistreatment
that surpasses the record of any element of our
federal government. The exclusion of Black farmers
on the basis of their race alone from even presenting
a claim in the Love/Garcia framework can not be
reconciled with the contempt in which racial
22

classifications are held in our system of
jurisprudence
and this Court's recent Equal
Protection analyses in the cases decided in June
2019. In view of the above arguments, it is
respectfully requested that a Writ of Certiorari issue.
July 23, 2019
Respectfully submitted,

s/Paul A. Robinson, Jr.
Paul A. Robinson, Jr.
3749 Marty Street
Memphis, TN 38109
Problaw937@hotmail.com
Counsel for Petitioners

23

APPENDIX
UNITED STATES COURT OF APPEALS FOR
DISTRICT OF COLUMBIA CIRCUIT FILINGS:

THE

Per Curiam Order Denying Panel Rehearing,
filed 04/24/19 . . . . . . . . . . . . . . . . . . . . . . . . . A1
Per Curiam Order Denying Rehearing En Banc,
filed 04/24/19 . . . . . . . . . . . . . . . . . . . . . . . . . B1
Opinion,
filed 01/15/19 . . . . . . . . . . . . . . . . . . . . C1 - C24

UNITED STATES DISTRICT COURT
DISTRICT OF COLUMBIA FILINGS:

FOR THE

Memorandum Order,
filed 03/16/17 . . . . . . . . . . . . . . . . . . . . D1 - D14

))))))Ë))))))

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
____________
September Term, 2018
No. 17-5082
1:15-cv-01112-TSC
Filed On: April 24, 2019
ESTATE OF EARNEST LEE BOYLAND, ET AL.,
Appellants
v.
UNITED STATES DEPARTMENT OF
AGRICULTURE, ET AL.,
Appellees
BEFORE: Griffith and Pillard, Circuit Judges;
Sentelle, Senior Circuit Judge
ORDER
Upon consideration of appellants’ petition for panel
rehearing, it is ORDERED that the petition be
denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Ken R. Meadows
Deputy Clerk

A-1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
____________
September Term, 2018
No. 17-5082
1:15-cv-01112-TSC
Filed On: April 24, 2019
ESTATE OF EARNEST LEE BOYLAND, ET AL.,
Appellants
v.
UNITED STATES DEPARTMENT OF
AGRICULTURE, ET AL.,
Appellees
BEFORE:
Garland, Chief Judge; Henderson,
Rogers, Tatel, Griffith, Srinivasan, Millett,
Pillard, Wilkins, Katsas, and Rao, Circuit
Judges; Sentelle, Senior Circuit Judge
ORDER
Upon consideration of appellants’ petition for
rehearing, en banc, and the absence of a request by
any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Ken R. Meadows
Deputy Clerk
B-1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
____________
Argued October 1, 2018 Decided January 15, 2019
No. 17-5082
ESTATE OF EARNEST LEE BOYLAND, ET AL.,
APPELLANTS
Appellants
v.
UNITED STATES DEPARTMENT OF
AGRICULTURE, ET AL.,
Appellees
Appeal from the United States District Court
for the District of Columbia
(No. 1:15-cv-01112)
Robert E. Hauberg Jr. argued the cause and
filed the briefs for appellants. Paul A. Robinson Jr.
entered an appearance.
Jennifer L. Utrecht, Attorney, U.S. Department of
Justice, argued the cause for appellees. With her on
the brief was Charles W. Scarborough, Attorney.
Stephen P. Murphy was on the brief for appellee
EPIQ Class Action & Claims Solutions, Inc.
Before: GRIFFITH and PILLARD, Circuit Judges,
and SENTELLE, Senior Circuit Judge.
Opinion for the Court filed by Circuit Judge
PILLARD. PILLARD, Circuit Judge: Plaintiffs,
C-1

representing the estates of black male farmers, seek
to submit claims of past discrimination in
agricultural credit programs to a claimsprocessing
framework set up to resolve Hispanic and female
farmers’ credit discrimination claims.
In this
lawsuit, they assert that the claims-processing
framework itself discriminatorily excluded them. In
short, they raise a discrimination claim about the
handling of discrimination claims. They therefore
identify two distinct discrimination claims, one
nested within the other: the underlying credit
discrimination claims, and the current challenge to
the framework. Plaintiffs argue that the district
court failed to assume the merits of their claim when
it held they lacked standing to bring the current
challenge. That is incorrect. Plaintiffs lack standing
to challenge the framework because they have no live
underlying credit discrimination claims to present
there.
Plaintiffs sued the United States Department
of Agriculture (“USDA” or “the Department”) and
Epiq Class Action & Claims Solutions, Inc. (“Epiq”),
the firm USDA hired to administer the framework,
contending they unlawfully discriminated by
affording women and Hispanic claimants exclusive
access to a remedial claims framework, the very
raison d’être of which was to redress USDA’s sex and
ethnicity discrimination against female and Hispanic
farmers. Plaintiffs allege that the farmers whose
estates they represent experienced discrimination in
USD A agr ic u l tu r al c r edi t and benefit
programs—based not on sex or Hispanic ethnicity,
C-2

but on their black racial identity. That claim is
certainly plausible. It is well established that, during
the 1980s and 1990s, USDA engaged in systemic
discrimination on multiple grounds against many of
the farmers its programs were supposed to serve. In
fact, it was a class action lawsuit by black farmers
(the “Black Farmers” suit) that first illuminated
USDA’s rampant credit discrimination and inspired
parallel lawsuits by Native American, female, and
Hispanic farmers.
And USDA modeled the
framework at issue here on the claims-processing
system it set up in settlement of the Black Farmers’
class action.
Plaintiffs in this case never submitted claims
in the Black Farmers remedial process. When they
instead sought to present their claims in the parallel
framework for claims of discrimination against
women and/or Hispanic farmers, the claims processor
turned them away. Plaintiffs contend that USDA
and Epiq thereby invidiously discriminated against
them based on their sex and race. They claim that
USDA violated the constitutional equal protection
guarantee and that Epiq violated the federal
statutory prohibition against discrimination by a
program or activity that receives federal financial
assistance.
In assessing standing, we assume that
plaintiffs could prevail on those claims. Plaintiffs’
standing nevertheless fails for want of redressability.
The claims-processing framework for women and
Hispanic farmers, like the parallel one for black
C-3

farmers, can only make good on live claims. Thus,
even assuming plaintiffs succeeded in invalidating
the framework’s challenged sex and ethnicity
limitations, they could not benefit unless they had
unexpired claims of credit discrimination to process
there. Because plaintiffs fail to allege that they have
any live claims to process in the framework they
challenge, the harm they assert from being excluded
is not redressable. Plaintiffs’ nested claims target
discrimination by USDA during the 1980s in
violation of the Equal Credit Opportunity Act
(ECOA), which prohibits discrimination in credit
transactions. 15 U.S.C. § 1691 et seq. ECOA’s
five-year statute of limitations has long since run on
most claims of that vintage. Congress in 1998
legislated an important but limited exception to
ECOA’s time bar for farmers who had complained of
discrimination to USDA between 1981 and July
1997—a period when, Congress found, the
Department’s internal system for addressing
discrimination claims was dysfunctional. Plaintiffs
do not allege they sought to press their claims to
USDA before July 1997, so they are ineligible to
benefit from Congress’s tolling of the limitations
period for farmers who did. Their decadesold claims
are time barred.
Even if we assumed that plaintiffs in fact took
steps before 1997 to preserve their claims and merely
neglected to so specify in their complaint, they would
still be out of luck. Together with everything else
they allege, that would mean— as the district court
assumed—that they were members of the plaintiff
C-4

class in the Black Farmers’ lawsuit. Any credit
discrimination claim a member of the Black Farmers
plaintiff class may have had during the relevant
period, whether or not actually pursued in the
remedial process established under the Black
Farmers’ consent decree, is now precluded by that
decree, or, for any member who opted out, time
barred. Thus, even if the challenged framework were
not limited to women and Hispanic farmers, it could
do nothing to redress plaintiffs’ precluded claims.
I.
A.
Over the past two decades, USDA has resolved
discrimination lawsuits with several different groups
of farmers. These lawsuits primarily challenged
discrimination in USDA’s lending programs in
violation of ECOA. 15 U.S.C. § 1691 et seq. Farmers’
bottom lines fluctuate with the weather and crop
prices, so “many farmers depend heavily on the credit
and benefit programs of the United States
Department of Agriculture to take them from one
year to the next.” Pigford v. Glickman (Pigford I),
185 F.R.D. 82, 86 (D.D.C. 1999) (footnote omitted).1
If a farmer’s crops fail, “he may not have sufficient
resources to buy seeds to plant in the following

1

Subsequent litigation in the case, not relevant here, became
known as Pigford II. We refer to Pigford I for clarity and
consistency with other opinions
C-5

season”; if he needs a new grain harvester, “he often
cannot afford to buy the harvester without an
extension of credit.” Id. “Because of the seasonal
nature of farming, it also is of utmost importance
that credit and benefit applications be processed
quickly or the farmer may lose all or most of his
anticipated income for an entire year.” Id.
Public protest over discrimination in USDA’s
credit and benefit programs spurred the Department
to investigate. That scrutiny uncovered a widespread
pattern of discrimination in the Department’s
agricultural credit and benefit programs. In 1996,
then-Secretary of Agriculture Dan Glickman
appointed a Civil Rights Action Team to assess the
Department’s history of racial discrimination and
recommend changes. See id. at 88. The Action Team
documented extensive economic harm to minority
farmers from discrimination in USDA programs. See
id. at 86-88. That discrimination owed partly to
USDA’s practice of delegating loan application
decisions to small, local committees in each county.
Id. at 86. The county committees were far less
diverse than the communities they served. Id. at 87.
USDA denied or delayed processing loan applications,
approved insufficient amounts, discriminatorily
denied access to loan servicing options, or imposed
restrictive conditions on loans because of the
applicants’ race, sex, or ethnicity. See Fourth Am.
Compl. 3, Love v. Veneman, No. 1:00-cv-02502
(D.D.C. July 13, 2012), ECF No. 160 (female
farmers); Eighth Am. Compl. 2, Keepseagle v.
Veneman, No. 1:99-cv-03119 (D.D.C. Feb. 11, 2008),
C-6

ECF No. 460 (Native American farmers); Third Am.
Compl. 13, Garcia v. Veneman, No. 1:00cv-02445
(D.D.C. June 30, 2006), ECF No. 144 (Hispanic
farmers); Pigford I, 185 F.R.D. at 87 (black farmers).
ECOA claims formed the core of the four lawsuits
filed against USDA on behalf of black, Native
American, women, and Hispanic farmers.
ECOA creates a private right of action against
a creditor, including the United States, who
“discriminate[s] against any applicant, with respect
to any aspect of a credit transaction . . . on the basis
of race, color, national origin, [or] sex,” among other
characteristics. Id. §§ 1691(a), 1691e(a).
The evidence developed in the Pigford I Black
Farmers litigation showed that, on top of
discrimination by the committees, by 1983, USDA’s
Office of Civil Rights Enforcement and Adjudication
(OCREA), which was responsible for handling civil
rights complaints against the Department,
“essentially was dismantled and complaints that
were filed were never processed, investigated or
forwarded to the appropriate agencies for
conciliation,” to the point that, “[i]n some cases,
OCREA staff simply threw discrimination complaints
in the trash without ever responding to or
investigating them.” Pigford I, 185 F.R.D. at 88. The
public learned of the dysfunction of OCREA in a 1996
report by the U.S. Commission on Civil Rights; only
with the publication of the Civil Rights Action Team
report the following year did the government begin to
reckon with the scale of the discrimination. See
C-7

USDA Civil Rights Action Team, Civil Rights at the
United States Department of Agriculture 2 (1997);
U.S. Comm’n on Civil Rights, Federal Title VI
Enforcement to Ensure Nondiscrimination in
Federally Assisted Programs 255 (1996). The same
month the Action Team released its report, USDA’s
Office of the Inspector General issued a report
describing USDA’s lack of transparency and backlog
of unprocessed complaints. See Pigford I, 185 F.R.D.
at 88. “The acknowledgment by the USDA that the
discrimination complaints had never been processed,
however, came too late for many African American
farmers.” Id. Farmers’ legal recourse was limited by
the then-two-year statute of limitations on claims of
discrimination in credit transactions under ECOA.
15 U.S.C. § 1691e(f); see Dodd-Frank Wall Street
Reform and Consumer Protection Act, Pub. L. No.
111-203, § 1085(7), 124 Stat. 2085, 2113 (2010)
(changing the statute of limitations to five years).
In 1998, Congress responded to the farmers’
predicament by lifting the time bar for farmers who
had made timely efforts to seek administrative
redress for credit discrimination but were stymied by
the dysfunction at USDA. See 7 U.S.C. § 2279 note
(Omnibu s Con s ol i dated and Emergency
Supplemental Appropriations Act, 1999, Pub. L. No.
105-277, § 741, 112 Stat. 2681) (“Appropriations
Act”). The Appropriations Act tolled the statute of
limitations for two years after its passage—from
October 1998 to October 2000— for people who (1)
alleged non-employment-related discrimination by
USDA occurring between January 1, 1981, and
C-8

December 31, 1996, and (2) had filed a complaint
with USDA before July 1, 1997. A farmer who
complained to USDA in 1983, when OCREA broke
down, could have had valid claims based on
discrimination as far back as 1981, which
presumably accounts for Congress’s choice of that
year as the beginning of the statutory date range. By
confining the Act’s beneficiaries to people who had
sought to complain to USDA during a period when
the Department systematically failed to process
farmers’ discrimination claims, Congress limited its
legislative fix to claimants blocked by OCREA’s
dysfunction. It did not more broadly waive the
statute of limitations for all farmers who suffered
discrimination in the 1981 to 1996 statutory period.
USDA has resolved the discrimination
lawsuits of each of the four groups of farmers. For
each group, the only farmers permitted to participate
in the claims-resolution processes established in
response to these cases were those who had, before
the suits were filed, complained in some manner of
USDA’s discrimination. Framework for Hispanic or
Female Farmers’ Claims Process ¶¶ VIII.A, VIII.B,
VIII.C.1.g, Love, No. 1:00-cv-02502 (D.D.C. Jan. 20,
2012), ECF No. 155-1 (“Garcia/Love Framework”);
Keepseagle, No. 1:99-cv-03119, 2001 WL 34676944, at
*6 (D.D.C. Dec. 12, 2001); Pigford I, 185 F.R.D. at 92.
USDA settled with the class of Black Farmers
first, in 1999, in Pigford I. 185 F.R.D. 82. The court
approved the creation of a two-track dispute
resolution mechanism for distributing proceeds to
C-9

claimants. Under that process, claimants with less
documentary evidence of discrimination received
capped payments, while claimants with more
documentary evidence could seek to prove and
recover actual damages. Pigford I, 185 F.R.D. at
95-97.
The process established in Pigford I became a
template for the other cases. Next, USDA settled a
class action suit with Native American farmers. See
Keepseagle, No. 1:99-cv03119, 2012 WL 13098692, at
*1 (D.D.C. Dec. 28, 2012). Similar lawsuits by
Hispanic and female farmers followed, but did not
result in class-wide settlements because neither case
was certified as a class action. Garcia v. Johanns,
444 F.3d 625 (D.C. Cir. 2006) (Hispanic farmers);
Love v. Johanns, 439 F.3d 723 (D.C. Cir. 2006)
(female farmers). Instead, USDA voluntarily created
a joint claims process for both Hispanic and female
farmers. See Garcia/Love Framework. Claimants
who wished to recover under the Garcia/Love
Framework agreed, in the claim packets they
submitted, to release their individual claims against
USDA. See id. ¶ 5; Settlement Agreement, Love, No.
1:00-cv-02502 (D.D.C. Feb. 3, 2017), ECF No. 2751.
As described above, Congress did not toll all
claims of discrimination arising between 1981 and
1996—only those of farmers who also brought a
complaint of discrimination by July 1, 1997. See
Pigford I, 185 F.R.D. at 92-93, 100. The plaintiffs
here have neither shown nor alleged that they made
a credit discrimination complaint to the government
C-10

at any time, much less by the deadline, as they would
have had to do to qualify as Pigford I class members.
B.
This case addresses whether the plaintiff black
farmers who, again, did not file claims in Pigford I,
may now participate in the Garcia/Love Framework
established to compensate farmers discriminated
against because of their sex or Hispanic ethnicity.
The plaintiffs are the Black Farmers and
Agriculturalists Association, Inc. (BFAA), which
describes itself as “a not[-]for-profit organization
created for the specific purpose of responding to the
issues and concerns of black farmers in the United
States and abroad,” Appellants’ Br. 4, and the estates
of three now-deceased black male farmers (the
individual plaintiffs), which allege that USDA
discriminated against the farmers in lending
programs during the 1980s. The individual plaintiffs’
current challenge to their exclusion from the
Garcia/Love Framework is pressed by the farmers’
children and grandchildren, who are also members of
plaintiff BFAA.
In 2013, after the Pigford process had closed,
plaintiff BFAA unsuccessfully sought to intervene in
Garcia and Love to assert, among other claims, that
its members were entitled under the Equal
Protection and Due Process Clauses to participate in
the Garcia/Love Framework. Garcia, 304 F.R.D. 77,
81 (D.D.C. 2014), aff’d, No. 14-5175, 2014 WL
6725751 (D.C. Cir. Nov. 18, 2014); Love, 304 F.R.D.
C-11

85, 88 (D.D.C. 2014), aff’d, No. 14-5185, 2014 WL
6725758 (D.C. Cir. Nov. 18, 2014). The court denied
intervention because, as relevant here, BFAA lacked
standing to press its constitutional challenges.
Garcia, 304 F.R.D. at 82. In the meantime, the three
individual plaintiffs submitted claims to the
Garcia/Love Framework. They received denials
explaining: “To participate in this Process, you must
be either Hispanic/Latino or female. . . . [Y]ou
indicated that you are an African American male.”
J.A. 57, 64, 72.
BFAA and the individual plaintiffs then
brought this putative class action against USDA and
Epiq. They alleged that USDA and Epiq violated
their Fifth Amendment due process and equal
protection rights, as well as Title VI of the Civil
Rights Act of 1964, by excluding them from the
Garcia/Love Framework because of their race and
sex.
The district court granted USDA’s motion to
dismiss the constitutional claims. It held that issue
preclusion barred BFAA from relitigating its
standing, because the Garcia/Love court had already
decided the question. Estate of Boyland v. Young,
242 F. Supp. 3d 24, at 30 (D.D.C. 2017); see also
Garcia, 304 F.R.D. at 82; Love, 304 F.R.D. at 90. The
individual plaintiffs also lacked standing for much
the same reason the Garcia/Love court had given for
denying BFAA’s standing: their lack of opportunity to
present their discrimination claims was not fairly
traceable to the Garcia/Love Framework, but to their
C-12

own failure to file timely claims for compensation
under the Pigford settlement. The court dismissed
the Title VI claim against Epiq on the ground that
the Garcia/Love Framework was not a “program or
activity” within the meaning of Title VI, and that
Epiq had not received “federal financial assistance,”
a prerequisite to the statute’s applicability.
II.
We review de novo the district court’s
dismissal for lack of standing, Young Am.’s Found. v.
Gates, 573 F.3d 797, 799 (D.C. Cir. 2009), and for
failure to state a claim on the merits, Hispanic
Affairs Project v. Acosta, 901 F.3d 378, 385 (D.C. Cir.
2018). The plaintiffs bear the burden of establishing
our jurisdiction, including the elements of standing.
Lujan v. Defs. of Wildlife, 504 U.S. 555, 561 (1992).
The requirements of Article III standing are injury in
fact, causation, and redressability. Id. at 560-61.
Injury in fact is “an invasion of a legally protected
interest which is (a) concrete and particularized . . .
and (b) actual or imminent, not conjectural or
hypothetical.” Id. at 560 (internal quotation marks
and citations omitted). The injury must also be
“fairly traceable to the challenged action of the
defendant, and not the result of the independent
action of some third party not before the court.” Id.
(internal quotation marks and alterations omitted).
Finally, “it must be likely, as opposed to merely
speculative, that the injury will be redressed by a
favorable decision.” Id. at 561 (internal quotation
marks omitted).
C-13

Plaintiffs lack standing to sue USDA and Epiq
for excluding them from the Garcia/Love
Framework, because they have failed to show that
the court could redress any injury they claim from
that exclusion.
For purposes of analyzing plaintiffs’ standing,
we make the requisite assumption that they would
prevail on the merits of their claim that, in excluding
them from the Garcia/Love Framework, USDA and
Epiq impermissibly discriminated against them
because of their race and sex. Whether a plaintiff
has a legally protected interest that supports
standing does not require that he show he will
succeed on the merits; if it did, every merits loss
would amount to a lack of standing. Instead, “when
considering whether a plaintiff has Article III
standing, a federal court must assume, arguendo, the
merits of his or her legal claim.” Parker v. District of
Columbia, 478 F.3d 370 (D.C. Cir. 2007) (citing
Warth v. Seldin, 422 U.S. 490, 501-02 (1975)); see
also Campbell v. Clinton, 203 F.3d 19, 23 (D.C. Cir.
2000) (warning against “conflat[ing] standing with
the merits”).
Even assuming plaintiffs here would prevail on
their challenge to their exclusion from the
Framework, their injury is not redressable because
they lack live credit discrimination claims to present
there. The district court accepted the plaintiffs’
description of their injury as “the loss of the
‘opportunity . . . to present a meritorious claim for
discrimination against’” USDA challenging past
C-14

credit discrimination, as do we. Estate of Boyland,
242 F. Supp. 3d at 31 (quoting Compl. ¶¶ 74, 83, 90).
That loss of opportunity cannot be redressed by
opening the Framework to plaintiffs, because any
credit discrimination claims they once had under
ECOA have been extinguished, as explained below.
Plaintiffs argue that accounting for this fact in
our standing analysis impermissibly folds the merits
of their case into standing, but that is not so.
Plaintiffs see error only by mistaking what it means
to assume, in analyzing standing, that they will
prevail on the merits. We must provisionally treat
the conduct plaintiffs challenge as in fact unlawful,
but we do not assume away other, unchallenged
constraints—whether of fact or law. Here, plaintiffs
take aim at the limitation of the Garcia/Love
Framework to victims of discrimination based on sex
or Hispanic ethnicity. But they raise no claim
against the Framework’s limitation to farmers who
unsuccessfully sought redress of credit discrimination
from USDA before 1997.2 That criterion, wholly

2

Their only hint in that direction falls wide of the mark.
They allege that “any socially disadvantaged farmer or
rancher who had not filed a meritorious claim for relief
against USDA” is still entitled to do so “under § 14011” of
the Food, Conservation, and Energy Act of 2008. J.A. 19.
But section 14011 by its terms establishes no such right.
That provision says that “[i]t is the sense of Congress that all
pending claims and class actions brought against the
Department of Agriculture by socially disadvantaged
C-15

apart from the Framework’s challenged sex- or
ethnicity-based limitation, is, whether by operation
of preclusion or the statute of limitations, fatal to
their current claim.
Plaintiffs read our decisions in Campbell and
Animal Legal Defense Fund, Inc. v. Glickman
(ALDF), 154 F.3d 426 (D.C. Cir. 1998), as requiring
us to accept their “legal theory” when we evaluate
their standing. Appellants’ Br. 22. But those cases
stand for the narrower proposition that a “party need
not prove that the . . . action it attacks is unlawful .
. . in order to have standing to level that attack.”
ALDF, 154 F.3d at 441 (quoting La. Energy & Power
Auth. v. FERC, 141 F.3d 364, 368 (D.C. Cir. 1998)).
Thus, in Campbell we held that plaintiff members of
Congress had not suffered the requisite
individualized injury to support their legislative
standing to seek a declaration that President Clinton
violated the Constitution’s War Powers Clause, even
if he did in fact violate the Clause. 203 F.3d at 23-24.

farmers or ranchers . . . including Native American,
Hispanic, and female farmers or ranchers, based on racial,
ethnic, or gender discrimination in farm program
participation should be resolved in an expeditious and just
manner.” Pub. L. 110-234, § 14011, 122 Stat. 923, 1448
(2008) (codified at 7 U.S.C. § 2279-2 note). It did not
thereby revive untimely claims, but only referred to
“pending claims and class actions,” several of which had
been filed but not yet settled when the bill was passed. Id.
(emphasis added).
C-16

We did not rest on the legal conclusion that the
President “did not take any actions that constitute
‘war’ in the constitutional sense,” as “[t]hat analysis
. . . conflate[d] standing with the merits.” Id. at 23
(disavowing concurrence’s reasoning to that effect).
In analyzing standing, we had to assume that the
President had violated the Constitution.
Even assuming the Garcia/Love Framework
unlawfully discriminates, as the current complaint
alleges, plaintiffs’ injuries are not redressable. That
holding is wholly consistent with Campbell and
ALDF. The bar plaintiffs face is no knock against
their equal protection and Title VI claims against
USDA and Epiq. The problem, rather, is that
plaintiffs have not alleged that they have any live
credit discrimination claims to press in the
Framework. Plaintiffs did not make a discrimination
complaint before July 1997, and are thus barred by
ECOA’s statute of limitations. The district courts
here and in Garcia/Love nevertheless treated the
plaintiffs as Pigford I class members, who by
definition did make a discrimination complaint by
that deadline. See Estate of Boyland, 242 F. Supp. 3d
at 31; Garcia, 304 F.R.D. at 81; Love, 304 F.R.D. at
88. Even if plaintiffs did make such a complaint,
however, they are barred by the Pigford I consent
decree. Plaintiffs have articulated a theory for
opening the Framework, but they have no theory for
resurrecting the underlying claims they wish to
process there. What follows is a detailed explanation
of why that is so.

C-17

Plaintiffs do not allege that they complained to
USDA before July 1997, and, accepting that they did
not do so, two obstacles prevent them from
participating in the Garcia/Love Framework, over
and above USDA and Epiq’s alleged discrimination.
One is statutory: Congress only revived ECOA claims
for those farmers who made a prior discrimination
complaint by July 1, 1997. Because the plaintiffs’
claims were never revived, they are subject to
ECOA’s ordinary statute of limitations (which is now
five years).
That means that their credit
discrimination claims, which allege discrimination in
the 1980s, are time barred. The second obstacle is
that the plaintiffs fail to meet the basic criteria for
participation in the Garcia/Love Framework, race
and sex aside, because the Framework requires
claimants to have complained of discrimination by
July 1997. See Status Report Ex. 20-21, Love, No.
1:00-cv-02502 (D.D.C. July 18, 2012), ECF No. 162-1;
Garcia/Love Framework ¶¶ VIII.A, VIII.B,
VIII.C.1.g. Indeed, the Garcia/Love Framework
includes this requirement because it was a key
parameter in Congress’s resurrection of ECOA
claims. Whatever form the obstacle takes, it
prevents the plaintiffs from processing their claims
through the Framework.
If plaintiffs did complain of discrimination by
July 1997, claim preclusion or the statute of
limitations would bar their claims now. As for
preclusion, if plaintiffs had made a preJuly 1997
race-based ECOA claim to USDA, they would have
qualified as Pigford I class members; the Pigford I
C-18

complaint alleged precisely the same kind of racial
discrimination as these plaintiffs’ nested claims. See
Seventh Am. Class Action Compl. 4-5, Pigford v.
Veneman, No. 1:97-cv-1978 (D.D.C. Oct. 26, 1998),
ECF No. 92. Plaintiffs do not allege that they opted
out of Pigford I. If they did not, their claims are
barred by the preclusive effects of the Pigford I
consent decree, which included the following release:
As provided by the ordinary standards
governing the preclusive effects of
consent decrees entered in class actions,
all members of the class who do not opt
out of this Consent Decree . . . and their
heirs, administrators, successors, or
assigns . . . hereby release and forever
discharge the defendant and his
administrators or successors, and any
department, agency, or establishment of
the defendant, and any officers,
employees, agents, or successors of any
s uch department, agen c y, or
establishment . . . from—and are hereby
themselves forever barred and
precluded from prosecuting—any and
all claims and/or causes of action which
have been asserted in the Seventh
Amended Complaint, or could have been
asserted in that complaint at the time it
was filed, on behalf of this class.
Consent Decree ¶ 18, Pigford, No. 1:97-cv-1978
(D.D.C. Apr. 14, 1999), ECF No. 167 (“Consent
C-19

Decree”). The court approved the decree, and it binds
the class. See Tritz v. U.S. Postal Serv., 721 F.3d
1133, 1141 (9th Cir. 2013) (“Courtapproved
settlement agreements . . . have res judicata effect.”);
21A Federal Procedure, Lawyers’ Edition § 51:258
(“[A] consent judgment entered pursuant to a
settlement agreement constitutes a final judgment on
the merits in a res judicata analysis.”); 18A Charles
Alan Wright, Arthur R. Miller & Edward H. Cooper,
Federal Practice and Procedure § 4443 (2d ed. 2002)
(explaining that “settlement agreements and consent
judgments ordinarily support claim preclusion”).
The plaintiffs hypothesize that an African
American female Pigford I class member who failed
to present her credit discrimination claims in the
Pigford process might nonetheless participate in the
Garcia/Love Framework. They contend that must
mean that Pigford I also lacks preclusive effect on the
credit discrimination claims the individual plaintiffs
seek to process as estates of African American male
farmers. It does not. The Garcia/Love Framework
only processes claims that USDA discriminated
against claimants “due to their being Hispanic or
female.” Garcia/Love Framework ¶ I. An African
American female farmer who failed to file a Pigford
claim would have lost her opportunity to submit her
race discrimination claims just as the plaintiffs here
have. The Garcia/Love Framework would allow her
recovery only for losses caused by sex discrimination,
a type of discrimination not at issue in Pigford nor in
any credit discrimination claims these plaintiffs may
have had against USDA. Claim preclusion does not
C-20

prevent a plaintiff from asserting a ground of
recovery that she could not have asserted in the
earlier action. See Littlejohn v. United States, 321
F.3d 915, 920 (9th Cir. 2003). In Stewart v. Rubin,
for example, the district court explained that a black
female class member in a class action challenging
racial discrimination “certainly would not be
precluded by the Settlement Agreement” from
separately litigating sex discrimination claims. 948
F. Supp. 1077, 1089 (D.D.C. 1996), aff’d, 124 F.3d
1309 (D.C. Cir. 1997).
Further, the Pigford I consent decree’s release
only precluded class members from litigating claims
that were or could have been asserted in the
operative complaint. Consent Decree ¶ 18. It is
because Pigford I alleged race discrimination, not sex
discrimination, that the black male plaintiffs are
precluded even while a sex discrimination claim by
the black female farmer in plaintiffs’ example would
not be. See 18A Charles Alan Wright, Arthur R.
Miller & Edward H. Cooper, Federal Practice and
Procedure § 4443 (2d ed. 2002) (“The basically
contractual nature of consent judgments has led to
general agreement that preclusive effects should be
measured by the intent of the parties.”).
Plaintiffs do not allege that they opted out of
Pigford and timely filed their own suit, thereby
avoiding Pigford’s preclusive effect, but if they in fact
did, they still fail because they map no route past
ECOA’s time bar. Even claims that were revived by
Congress’s tolling are by now time barred by the
C-21

revived claims’ statute of limitations (which expired
on October 21, 2000). Appropriations Act, Pub. L.
No. 105-277, § 741, 112 Stat. 2681 (codified at 7
U.S.C. § 2279 notes).
In any of the scenarios in which the plaintiffs
initially sought to complain to USDA of
discrimination by July 1997, their claims have been
extinguished.
To be clear, only the claims plaintiffs wish to
present in the Garcia/Love Framework (the
underlying claims of credit discrimination by USDA
in the 1980s) are precluded or time barred. The
claims they bring today under the Fifth Amendment
and Title VI do not suffer those procedural defects.
But the plaintiffs cannot end-run the procedural bars
on their underlying credit discrimination claims by
nesting them in new framework-discrimination
claims not subject to those bars. Those bars operate
independently from any potential discrimination by
USDA and Epiq, and prevent us from redressing the
plaintiffs’ injury by offering them an “opportunity . .
. to present a meritorious claim for discrimination
against” USDA. Compl. ¶¶ 74, 83, 90.
Recognizing those barriers as a standing defect
does not collapse all procedural bars into standing
issues. If the plaintiffs here sidestepped all the
frameworks and sued USDA directly for violating
ECOA in the 1980s, the court would dismiss the case
on grounds of claim preclusion or untimeliness,
rather than standing. The plaintiffs have avoided
C-22

that fate by nesting procedurally barred claims in
nonprocedurally barred claims, such that the claims
they bring today cannot be dismissed for those
reasons. Yet, because their underlying ECOA claims
are procedurally barred, we cannot avoid the reality
that, even if plaintiffs won an opportunity to present
those claims in the Framework, they would be
ineligible for redress and thereby lack standing to
sue.
Plaintiffs never explained why the consent
decree or statute of limitations would not bar their
claims. They simply describe the “legal theory of
their case” as being “that the USDA’s administrative
claims process whereby Epiq, at the direction of and
on behalf of the USDA, expressly excludes
African-American males from participating based
solely on their race and gender violates the Fifth
Amendment, notwithstanding the Pigford consent
decrees.” Appellants’ Br. 23. Even accepting that
theory as true does not overcome the independent
hurdles of the Pigford consent decree and ECOA’s
statute of limitations. Taking all the complaint’s
allegations as true, one of those hurdles necessarily
blocks the way. The plaintiffs therefore lack
standing becaus e th eir i n j u r y is n ot
redressable—even if they satisfy the other prongs of
the standing test, and even if they are right on the
merits that the Garcia/Love Framework violates the
law.
Because the standing defect is dispositive, we
need not consider the district court’s holding that
issue preclusion prevents BFAA (alone or in addition
C-23

to the individual plaintiffs) from relitigating its
standing. We affirm the district court’s decision
dismissing the case in its entirety.
So ordered.

C-24

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
__________________________
ESTATE OF EARNEST)
BOYLAND, et al.,
)
Plaintiffs,
)
v.
)Case No. 15-cv-1112 (TSC)
MICHAEL YOUNG,
)
Acting Secretary, U.S. )
Dep’t of Agriculture,
)
et al.,
)
Defendants, )
___________________________
MEMORANDUM OPINION
In this case brought under Title VI of the Civil
Rights Act of 1964, 42 U.S.C. § 2000d, and the Fifth
Amendment of the U.S. Constitution, Plaintiffs allege
that they have been discriminated against by
Defendants U.S. Department of Agriculture
(“USDA”) and Epiq Class Action & Claims Solutions,
Inc. in the denial of their administrative
discrimination claims. Before the court are
Defendants’ motions to dismiss. (ECF Nos. 5, 18). For
the reasons stated below, both motions are
GRANTED.
I. BACKGROUND
Plaintiffs in this case are the estates of three
Black farmers who seek compensation for past
discrimination by the USDA, as well as the Black
Farmers & Agriculturalists Association, Inc.
D-1

(“BFAA”), an organization which advocates for
redress of the USDA’s past discrimination. (Compl. ¶
1). This case relates to litigation that has been
ongoing in some form for over twenty years.
Following decades of discrimination by the USDA
against Black farmers in the denial, delay, or
frustration of their applications for farm loans or
other benefit programs, the federal government
entered into a class settlement consent decree. See
Pigford v. Glickman (“Pigford I”), 185 F.R.D. 82
(D.D.C. 1999). Following this settlement, the USDA
awarded over one billion dollars in compensation and
relief to approximately 16,000 successful claimants.
In re Black Farmers Discrim. Litig. (“Pigford II”), 856
F. Supp. 2d 1, 10–11 (D.D.C. 2011). Over 60,000
additional claimants sought compensation under the
Pigford I consent decree but were denied because
their claims were untimely. Id. at 11. After
conducting hearings into the Pigford I settlement and
claims process, Congress “resurrected the claims of
those who had unsuccessfully petitioned the
Arbitrator for permission to submit late claim
packages” by passing the Food, Conservation, and
Energy Act of 2008 (“2008 Farm Bill”). Id.
Approximately 40,000 claimants filed complaints in
this court following the 2008 Farm Bill, and their
claims were consolidated into the Pigford II
litigation. Id. at 13. In 2011, the court in that case
approved an additional settlement consent decree,
with a potential total payout of an additional one
billion dollars. See White v. Vilsack, 80 F. Supp. 3d
123, 125 (D.D.C. 2015) (recounting Pigford history).
Unlike in Pigford I, the class members in Pigford II
D-2

were not permitted to opt out, and the settlement
terms were thus binding on all class members. See id.
at 126.
During the same time period, the USDA was
engaged in class action litigation with other plaintiffs
who similarly alleged discrimination by the agency.
Two lawsuits on behalf of Hispanic farmers and
female farmers were brought in 2000, but the courts
denied class certification in both cases. See Garcia v.
Johanns, 444 F.3d 625 (D.C. Cir. 2006) (affirming
denials). Following these denials of class certification,
the USDA voluntarily created an alternative dispute
resolution (“ADR”) administrative claims process for
Hispanic and female farmers to resolve their
discrimination claims against the USDA. See Love v.
Vilsack, 304 F.R.D. 85, 87 (D.D.C. 2014) (describing
administrative process established by the USDA);
Garcia v. Vilsack, 304 F.R.D. 77, 79 (D.D.C. 2014)
(same). Participation in this administrative claims
process was conditioned on dismissal of the farmer’s
discrimination claims against the USDA. Defendant
Epiq was selected to be the claims administrator.
(Compl. ¶¶ 4–6).
Plaintiffs in this case—the estates of Earnest
Boyland, David Shelton, and Lee Sylvester
Caldwell—allege that they faced discrimination by
the USDA during the relevant time period underlying
the Pigford I litigation but failed to submit claims
under either the Pigford I or Pigford II consent
decrees. (Compl. ¶¶ 66, 68 (Boyland), 82 (Shelton), 89
(Caldwell)). Instead, in March 2013 Plaintiffs
attempted to file claims under the ADR process
established to resolve claims brought by Hispanic and
D-3

female farmers, and their claims were denied because
the claimants identified as Black male farmers, not
Hispanic or female. (Id. ¶¶ 71–73 (Boyland), 78–79
(Shelton), 85–86 (Caldwell)). Plaintiffs, including
BFAA, on behalf of themselves and all similarly
situated individuals, brought this litigation alleging
violations of their Fifth Amendment rights to due
process and equal protection, as well as violations of
Title VI. BFAA also attempted to intervene in the
Love and Garcia cases to bring similar constitutional
claims, but the court denied intervention. See Love,
304 F.R.D. at 89–92; Garcia, 304 F.R.D. at 81–85.
II. LEGAL STANDARD
A motion to dismiss under Fed. R. Civ. P.
12(b)(6) for failure to state a claim tests the legal
sufficiency of a complaint. Browning v. Clinton, 292
F.3d 235, 242 (D.C. Cir. 2002). “To survive a motion
to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.’” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). A claim is plausible when it
alleges sufficient facts to permit the court to “draw
the reasonable inference that the defendant is liable
for the misconduct alleged.” Id. Thus, although a
plaintiff may survive a Rule 12(b)(6) motion even
where “recovery is very remote and unlikely,” the
facts alleged in the complaint “must be enough to
raise a right to relief above the speculative level.”
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555–56
(2007) (internal quotation marks omitted).
Evaluating a 12(b)(6) motion is a “context-specific
task that requires the reviewing court to draw on its

D-4

judicial experience and common sense.” Iqbal, 556
U.S. at 679.
III. DISCUSSION
A. Title VI Claims
In Counts I through IV, Plaintiffs allege that
Epiq’s denials of their claims violated Title VI
because its determinations that they were ineligible
for compensation were impermissibly based on their
race. (Compl. ¶¶ 48–91). Under Title VI, “[n]o person
in the United States shall, on the ground of race,
color, or national origin, be excluded from
participation in, be denied the benefits of, or be
subjected to discrimination under any program or
activity receiving Federal financial assistance.” 42
U.S.C. § 2000d. Epiq argues that Plaintiffs’ Title VI
claims should be dismissed because (1) Title VI does
not apply to the USDA’s administrative claims
process at issue here and (2) a Title VI claim cannot
be brought against Epiq because it does not receive
federal financial assistance.1 The court agrees.
Title VI defines “program or activity” as the
operations of a state or local government, a higher
education institution, a local educational agency or
school system, or corporations and other private
entities “principally engaged in the business of
1

Epiq additionally argues that Plaintiffs’ Title VI claims should
be dismissed because Title VI requires proof of intentional
discrimination, which Plaintiffs have not sufficiently alleged,
and Plaintiffs lack standing to challenge the USDA program
because they were not the intended beneficiaries. Because the
court concludes that Title VI does not apply to Epiq in its role
as a claims administrator for the USDA, the court need not
consider these alternative arguments.

D-5

providing education, health care, housing, social
services, or parks and recreation.” 42 U.S.C. §
2000d-4a(1)–(4). This statutory definition excludes
federal agencies, and therefore it is well-recognized
that Title VI does not reach “the operations of the
federal government and its agencies.” DynaLantic
Corp. v. U.S. Dep’t of Defense, 885 F. Supp. 2d 237,
291 (D.D.C. 2012); see also Wise v. Glickman, 257 F.
Supp. 2d 123, 132 (D.D.C. 2003); Williams v.
Glickman, 936 F. Supp. 1, 5 (D.D.C. 1996). In the
court’s view, USDA’s voluntary ADR process for
resolving discrimination claims brought by Hispanic
or female farmers against USDA is not a “program or
activity” under the statutory definition because it
does not involve any of the listed entities and
therefore falls outside the scope of Title VI’s coverage.
While USDA has contracted with Epiq — a private
corporation — to process individuals’ claims,
Plaintiffs have not alleged any facts that Epiq is
“principally engaged in the business of providing
education, health care, housing, social services, or
parks and recreation” in order to fall within the
statutory definition for a covered “program or
activity” under Title VI.
Even if Epiq were covered by the statutory
definition, Plaintiffs must further allege that Epiq
receives federal financial assistance to carry out its
program or activity. 42 U.S.C. § 2000d. While the
term “financial assistance” is not defined by the
statute, under USDA’s Title VI regulations,
promulgated pursuant to 42 U.S.C. § 2000d-1,
“financial assistance” is defined as

D-6

(1) grants and loans of Federal funds,
(2) the grant or donation of Federal
property and interests in property, (3)
the detail of Federal personnel, (4) the
sale and lease of, and the permission to
use (on other than a casual or transient
basis), Federal property or any interest
in such property or the furnishing of
services without consideration or at a
nominal consideration, or at a
consideration which is reduced for the
purpose of assisting the recipient, or in
recognition of the public interest to be
served by such sale, lease or furnishing
of services to the recipient, and (5) any
Federal agreement, arrangement, or
other contract which has as one of its
purposes the provision of assistance.
7 C.F.R. § 15.2(g). The parties provided the court
with no cases from this Circuit analyzing the scope of
the term “financial assistance” in Title VI,
particularly in the context of contracts to perform
services for the federal government, and this question
appears to be unresolved by the D.C. Circuit.
However, in analyzing the scope of the term “federal
financial assistance” in an analogous provision of the
Rehabilitation Act, 29 U.S.C. § 704,2 other district

2

The Rehabilitation Act states that “[n]o qualified individual
with a disability in the United States . . . shall, solely by reason
of her or his disability, be excluded from the participation in,
be denied the benefits of, or be subjected to discrimination
under any program or activity receiving Federal financial

D-7

judges in this Circuit have concluded that the statute
does not extend to entities receiving payments made
by the federal government in exchange for services.
See Lee v. Corrections Corp. of Am., 61 F. Supp. 3d
139, 144 (D.D.C. 2014) (“Courts . . . have consistently
construed ‘Federal financial assistance’ to mean the
federal government’s provision of a subsidy to an
entity, not the federal government’s compensation of
an entity for services provided”); Abdus-Sabur v.
Hope Village, Inc., --- F. Supp. 3d ----, 2016 WL
7408833, at *4 (D.D.C. Dec. 22, 2016) (same). Other
Circuits have similarly concluded that to establish
“federal financial assistance,” there must be some
allegation or evidence that the private entity received
a subsidy, not simply compensation. See Jacobson v.
Delta Airlines, Inc., 742 F.2d 1202, 1210 (9th Cir.
1984) (“It is thus clear that payments . . . constitute
federal financial assistance if they include a subsidy
but that they do not constitute such assistance if they
are merely compensatory.”); DeVargas v. Mason &
Hanger-Silas Mason Co., 911 F.2d 1377, 1382 (10th
Cir. 1990) (same); Shotz v. Am. Airlines, Inc., 420
F.3d 1332, 1335 (11th Cir. 2005) (same). Moreover, at
least one district judge outside of this Circuit has
extended this subsidy analysis to Title VI. See Jarno
v. Lewis, 256 F. Supp. 2d 499, 504–05 (E.D. Va. 2003)
(“[T]he term ‘federal financial assistance’ should be
given its plain and ordinary meaning, that is, aid

assistance or under any program or activity conducted by any
Executive agency or by the United States Postal Service.” 29
U.S.C. § 704 (emphasis added).

D-8

provided to assist rather than to compensate for
services rendered.”).
Here, Plaintiffs do not allege any facts with
respect to the relationship between Epiq and the
USDA beyond stating that Epiq is “employed” as a
claims administrator. (See Compl. ¶ 4 (“Defendants,
USDA employed or caused to be employed Defendant,
EPIQ a/k/a the claims administrator, to implement
Defendant, USDA’s unconstitutional claims
procedure.”), ¶ 54 (“Defendant, EPIQ acted within
the scope of its employment by Defendant, USDA.”)).
While Plaintiffs allege in conclusory language that
Epiq is a “direct recipient of federal funds” and “an
entity receiving federal funds” (id. ¶¶ 5, 69),
Plaintiffs have not alleged facts to establish that Epiq
receives a subsidy, or anything other than mere
compensation, for its services. Therefore, Plaintiffs
have failed to plead sufficient facts to establish that
the USDA’s administrative process for resolving
discrimination claims, administered by Epiq, is
covered by Title VI, which is the necessary first step
in alleging a Title VI violation. See Lee, 61 F. Supp.
3d at 144 (dismissing Rehabilitation Act claim
because “plaintiff d[id] not allege that defendant
receive[d] subsidies from the federal government” to
establish it received financial assistance). Epiq’s
motion to dismiss is therefore GRANTED.
B. Constitutional Claim
Plaintiffs next allege in Count V of their
Complaint that the USDA violated their Fifth
Amendment equal protection and due process rights
by establishing an administrative claims process that
considers only discrimination claims brought by
D-9

Hispanic and female farmers.3 (Compl. ¶¶ 92–117).
The USDA argues that the issue of BFAA’s standing
to pursue this challenge has already been determined
by another judge of this court, and therefore the
doctrine of res judicata bars re-litigating the issue.
The court agrees, and further concludes that the
individual Plaintiffs’ claims should also be dismissed
for failure to establish that their alleged injuries are
fairly traceable to the remedy they seek.
The doctrine of issue preclusion “bars parties
from re-litigating any issue ‘contested by the parties
and submitted for judicial determination in [a] prior
case’ so long as ‘the issue [was] actually and
necessarily determined by a court of competent
jurisdiction in that prior case’ and ‘preclusion in the
second case [would] not work a basic unfairness to
the party bound by the first determination.” Gov’t of
Rwanda v. Johnson, 409 F.3d 368, 374 (D.C. Cir.
2005) (quoting Yamaha Corp. of Am. v. United States,
961 F.2d 245, 254 (D.C. Cir. 1992)). “Issue preclusion
applies to threshold jurisdictional issues like

3

It is unclear from Plaintiffs’ Complaint whether their
constitutional claims are also brought against Epiq. To the
extent that they are, Epiq moves to dismiss these claims as well,
on the basis that as a private non-governmental entity it may
not be sued under the Constitution. Plaintiffs did not respond
to Epiq’s motion on these claims, and therefore conceded that
these claims should be dismissed. See, e.g., Satterlee v. Comm’r,
195 F. Supp. 3d 327, 337–38 (D.D.C. 2016) (treating arguments
in a motion to dismiss as conceded when plaintiffs failed to
address those arguments). Therefore, without addressing the
merits of Epiq’s argument, the court will grant Epiq’s motion to
dismiss as to these claims.

D-10

standing as well as issues going to a case’s merits.”
Nat’l Ass’n of Home Builders v. EPA, 786 F.3d 34, 41
(D.C. Cir. 2015).
In Love and Garcia, as here, BFAA sought a
court order declaring that the Fifth Amendment’s
equal protection and due process protections
“mandate[] that its members . . . [we]re entitled to
file claims under the framework established for
Hispanic and female farmers.” Garcia, 304 F.R.D. at
81; Love, 304 F.R.D. at 88. The courts determined in
both cases that BFAA “failed to demonstrate Article
III standing to pursue” its constitutional claims.
Garcia, 304 F.R.D. at 82–83; Love, 304 F.R.D. at
89–90. Specifically, the court noted that BFAA’s
members’ purported injuries—i.e., the inability to
have their claims adjudicated on the merits—were
the direct result of Pigford II’s bar on any future
Pigford claims, and as a result BFAA failed to
establish how these injuries were “fairly traceable” to
the USDA’s administrative claims process or how the
requested relief—participation in that process despite
their claims already being barred—would redress
that injury. See id. BFAA raises the same claim and
seeks the same remedy here. (See Compl. ¶¶ 92–117,
Section VII). Because the issue of BFAA’s Case
standing to challenge the USDA’s administrative
claims process on these constitutional grounds has
already been fairly litigated following BFAA’s
motions to intervene in Love and Garcia, the court
finds that BFAA is barred from litigating that issue

D-11

here, and will therefore GRANT the USDA’s motion
as to BFAA.4
With regard to the remaining Plaintiffs, the
court must also consider whether they have standing
to pursue their claims. The court’s power under
Article III “exists only to redress or otherwise to
protect against injury to the complaining party.”
Warth v. Seldin, 422 U.S. 490, 499 (1975). Plaintiffs
bear the burden of establishing each element of
Article III standing. Arpaio v. Obama, 797 F.3d 11,
19 (D.C. Cir. 2015) (citing Lujan v. Defenders of
Wildlife, 504 U.S. 555, 561 (1992)). Thus, Plaintiffs
must show: “(1) an ‘injury in fact’ that is ‘concrete
and particularized’ as well as ‘actual or imminent’; (2)
a ‘causal connection’ between the injury and the
challenged conduct; and (3) a likelihood, as opposed
to mere speculation, ‘that the injury will be redressed
by a favorable decision.’” Ark Initiative v. Tidwell,
749 F.3d 1071, 1075 (D.C. Cir. 2014) (quoting Lujan,
504 U.S. at 560–61). “The absence of any one of these

4

Though the Boyland, Shelton, and Caldwell estates did not
seek to intervene in Love or Garcia, the USDA still contends
that issue preclusion bars their claims for the same reasons as
BFAA’s. The USDA argues that the individual Plaintiffs are
organizational members of BFAA and are in privity with
BFAA, and therefore should be bound by the same preclusive
effect of the court’s intervention rulings in those cases.
Plaintiffs failed to respond to this argument in their
Opposition, and the USDA argues in its Reply that the court
should treat the issue as conceded. However, the court need not
reach the issue of whether these Plaintiffs are in privity with
BFAA, and will instead independently consider whether they
have standing to pursue their claims here.

D-12

three elements defeats standing.” Newdow v. Roberts,
603 F.3d 1002, 1010 (D.C. Cir. 2010).
Plaintiffs allege that they have been injured by
the loss of the “opportunity [] to present a meritorious
claim for discrimination against” the USDA. (Compl.
¶¶ 74 (Boyland), 83 (Shelton), 90 (Caldwell)). This
injury must be “fairly traceable” to the USDA’s
allegedly unlawful conduct. Nat’l Ass’n of Home
Builders, 667 F.3d at 11. The USDA argues that, as
the court decided with respect to BFAA in Love and
Garcia, Plaintiffs’ injuries are “fairly traceable” only
to their failure to participate in the Pigford I or
Pigford II litigation, because under the binding terms
of that settlement they are now unable to seek relief
for injuries that might have been redressed by the
Pigford consent decrees. Therefore, the USDA
argues, Plaintiffs’ injuries are not fairly traceable to
its administrative claims process for Hispanic and
female farmers. Because there is no causal
connection between the Plaintiffs’ alleged injuries
and the USDA’s claims process, the USDA further
argues that these injuries are unlikely to be
redressed by a favorable decision in this litigation.
In response, Plaintiffs contend that Pigford I
does not preclude their discrimination claims, as
Congress in the 2008 Farm Bill revived the Pigford
claims of those individuals who failed to file timely
claims. However, Plaintiffs have stated in their
Complaint that they did not participate in either the
Pigford I or Pigford II litigation, and so it is not clear
to the court, and Plaintiffs offer no guidance, as to
why the 2008 Farm Bill is relevant to the question of
whether Plaintiffs here may still bring discrimination
D-13

claims against the USDA. It appears to the court that
Plaintiffs’ claims regarding past discrimination by
the USDA are barred by the Pigford consent decrees,
and the 2008 Farm Bill offers no help to Plaintiffs
here. Plaintiffs have not alleged how their inability to
now pursue claims for past discrimination as a result
of Pigford II are traceable to the USDA’s
administrative claims process for Hispanic or female
farmers, or how their requested relief—an order
requiring participation in that claims process—would
redress their injuries. As a result, the court concludes
that Plaintiffs have failed to establish the necessary
elements of Article III standing. The court will
therefore GRANT the USDA’s motion to dismiss the
individual Plaintiffs’ constitutional claims.
IV. CONCLUSION
For the foregoing reasons, EPIQ’s motion to
dismiss is GRANTED, and the USDA’s motion to
dismiss is also GRANTED.
Date: March 16, 2017

Tanya S. Chutkan
TANYA S. CHUTKAN
United States District Judge

D-14

